U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 4, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Guy Gentile v. Securities and Exchange Commission,
S.Ct. No. 19-878

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
23, 2019, and placed on the docket on January 15, 2020. The government's response is due on
February 14, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 16, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0878
GENTILE, GUY
SECURITIES AND EXCHANGE COMMISSION

ADAM C. FORD
FORD O'BRIEN LLP
575 FIFTH AVENUE
17TH FLOOR
NEW YORK, NY 10017
212-858-0040
AFORD@FORDOBRIEN.COM

